No.

19-1-242-

3n ZOe

euprente (ottrt of tOe itniteb etatoz?

1
LEE MULCAHY, PhD, pro se
Petitioner,

JUL 17 2020
OFFICE OF THE CLERK

V.
ASPEN SKI COMPANY ("Skico")
Respondent.
On Petition for Writ of Certiorari
To The Colorado Court of Appeals

PETITION FOR REHEARING

LEE MULCAHY, Ph.D., Pro Se
53 Forge
Aspen, CO 81611
(970)429-8797
leemulcahyphd@gmail.corn

RECEIVED
JUL 23 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES
PETITION FOR REHEARING
CONCLUSION
CERTIFICATE OF PRO SE

ii
1
..13
13

ii

TABLE OF AUTHORITIES
Page
CASES

Bradford v Textile Workers of America, AFL-CIO, 563
10
F.2d 1138 (4th Cir. 1977)

Holder v. City of Allentown, 987 F.2d 188 (3rd Cir.
10
1993)

Ridpath v Board of Governor's Marshall Univ,
10
447 F.3d 292 (4th Cir. 2006)

1

PETITION FOR REHEARING
Pursuant to Sup. Ct. R. 44.2, Lee Mulcahy respectfully
petitions this Court for an order granting rehearing
and vacating the Court's June 22, 2020, order denying
certiorari, and disposing of this case by granting the
petition for certiorari, vacating the judgment, and
remanding to the Aspen Pitkin County district court
for further consideration.
As grounds for this petition for rehearing,
petitioner states the following:
This is the story of power and influence of
billionaires on our judicial system. Aspen Skiing
("Skico") is owned by the powerful billionaire Lester
Crown family that entertain Supreme Court justices in
their homes and tweet out pictures.
The prohibition against chilling free speech
derived from the prohibition against retaliation. The
hurdles faced by the employee who is fired because of
protected speech are not invisible to the employee
who is deciding whether to speak up. An employee
who considers whether to blow the whistle on their
employer for unlawful conduct or to advocate
unionization among her coworkers, but who fears
he/she may lose her job or be banned from riding ski
and bike lifts in national forest with no readily
available means of redress, is likely to be deterred

2
from speaking. Notwithstanding the formal prohibition
of retaliation against certain kinds of speech, we
should expect reasonable employees to be "chilled"
from speaking freely when it may put their jobs at risk
or worse. (Bradford v. Textile Workers of America,
AFL-CIO, 563 F.2d 1138 (4th Cir. 1977); Holder v. City
of Allentown, 987 F.2d 188 (3rd Cir. 1993); Ridpath v
Board of Governor's Marshall Univ., 447 F.3d 292 (4th
Cir. 2006)
Accordingly, Pro Se petitioner respectfully
requests that this Court grant my Petition for
Rehearing or in the alternative, that an order be
entered for a ski-off between petitioner and/or his
fiancee Ms. Cox with billionaire Jim Crown, owner of
Aspen Skiing and weapons maker General Dynamics
on the Montezuma Basin glacier outside Aspen up
Castle Creek.
Relevant facts
Skico is owned by Chicago billionaire Lester
1.
Crown who controls one of America's largest fortunes.
The New York Times writes:
"On the face of it, the issue seemed less
than monumental: the Pentagon was
seeking to revoke a businessman's
top-secret security clearance. The
significance lay in the nature of the
evidence, the financial and political
stakes involved and the identity of the
accused: 61-year-old Lester Crown, head

3
of the billionaire Chicago family that
controls America's largest defense
contractor, the General Dynamics
Corporation. Among those who
appeared or offered affidavits in his
behalf: Three former Secretaries of
State, two former Secretaries of Defense,
and former Secretaries of Treasury and
Commerce. Henry Kissinger praised
Crown's 'extraordinary probity.' Robert
McNamara had 'every confidence in his
integrity.' David Packard, co-founder of
the Hewlett-Packard Company and head
of a Presidential commission that had
just recommended sweeping changes in
the organization of the Defense
Department, vouched for his
'trustworthiness.'
Consequently, it has been very difficult to
obtain legal counsel. No one wants to take this case
on even with a paid retainer. No one wants to tackle
this family. The last bastion of a free society is the
ability to criticize our masters.
The billionaire Crowns have destroyed me
legally. My family is being evicted from the home we
built over five years and have never been late on taxes.
I have nothing to lose. Dubbed the "Elvis of cultural
theory" and "the most dangerous philosopher in the
West," researcher at the Department of Philosophy of

4
the University of Ljubljana Faculty of Arts,
International Director of the Birkbeck Institute for the
Humanities of the University of London., and also
Global Eminent Scholar at Kyung Hee University in
Seoul, Slavoj Zizek stated: "In politics, we have
authentic enemies. Everyone should not be respected
in politics and so on. Politics is a real struggle of life
and death."
This Court has the power to let the parties
resolve our disputes in a ski off a la "Aspen Extreme,"
legally. Trial by ski off has never been explicitly
banned or restricted as a right in the United States.
Captured local judge Chris Seldin and Skico's
absurdity have been met with my own absurdity. Mr.
Crown can choose any of the many Chicago, Denver
or Aspen attorneys of the three separate firms he has
chosen simultaneously to employ during the course of
this lawsuit as his stand-in in the ski off, including the
husband of the current assistant attorney of the City of
Aspen or even Ed Ramey, the free speech expert
teaching at the University of Colorado, to stand in for
him.
OPEN LETTER TO SUPREME COURT JUSTICES
From Petitioner Lee Mulcahy
STATE OF COLORADO
COUNTY OF PITICIN, Town of Aspen

5
Lee Mulcahy writes:
Dear Supreme Court Justices,
I am grateful for many, many things. I am especially
grateful to have an 84 year old "pistol" as a mom who
gave me a backbone. I am also grateful to have met a
beautiful Montana girl in Kenya eight years ago on my
family's first mission to do a water well led by my late
Father. Mama Sandy just got back from doing 3 more
water wells at public schools in Kenya. Both my late
Dad and I were Eagle Scouts and we have volunteered
thousands of hours in our community. Our Sheriff
believes that the ban is not American and my current
eviction is "a witch-hunt." As an artist, my paintings
are in and have been shown in museums in both Berlin
and Nairobi and galleries all over the world including
Aspen, Carbondale, Prague and Beijing. I am not an
attorney.
Before I initiated this lawsuit, I challenged Mike
Kaplan, Skico's CEO to this ski-off:
Dear Mike,
Despite our differences, we both love the
community our town creates. Although I have to
ROFL when the local dukes and countesses line
up to pay 10K to meet barefoot Michelle Obama
at the castle General Dynamics built four blocks

6
from my house. Rome in the 4th Quarter or
Versailles?
These days our politicians are just boring
blowhards; whereas, our Revolutionary
forefathers deeply respected a good fight. One of
the more famous duels back in the day occurred
when Vice President Burr fatally wounded
former Secretary of Treasury Hamilton in a High
Noon shootout.
Taking inspiration from the Roger Marolt/Aspen
Times and Lo Semple/Aspen Daily News current
challenge: Why not a Mulcahy/Kaplan flip-off at
the base of Aspen? Set up bleachers & the whole
town could come...you'll need to use the Little
Nell suite above Ajax Tavern as a VIP section for
your crowd. Cheerleaders?—would
Paula (Crown) bring pom-poms and go all Dallas
Cowboys for you?
It'll be hilarious: CEO vs. peon; big money vs.
white trash; Chicago North Shore vs. Fort Worth,
Texas; Audi driving Master of the Skico Universe
vs. pick-up driving Skico whistleblower; Aspen
Institute green "limousine liberal" vs. "Don't
tread on me" NRA/Tea Party occupier, Castle
Creek free market Denver University MBA vs.
Burlingame public housing union organizing
Sorbonne-attending PhD; Ski vs. snowboard; 1%
vs. 99%.

7
How 'bout a moguls contest on All's Scarlett's
instead of all this legal stuff we'll go through
next? Man to man. The Old Guard of Aspen
would love it and so in line with our local
history. But if I win, Skico has to pay more than
$9.25/hr. You call a "living wage" here and ... I
get my job back. Full disclosure: I was freestyle
aerial certified. But I'll even flip on a snowboard
and you can use those skis Roger Marolt pokes
fun of you about.
These protests all over the world have the same
message: Hey, 1%! Be fair and treat us with
dignity.
And that's the paradox of the public space,
everyone may kind of know something
unpleasant, but once someone says it, it changes
everything. Therefore, I cannot resist:
Paula Crown, graduate candidate at the Art
Institute of Chicago, is on President Obama's
arts council. Michelle has lunch at Paula's
palace. General Dynamics and JP Morgan Chase
are very prosperous.
What was that Dan Sheridan song Paula had
banned? "Big Money Ruins Everything"?
28th amendment to get the money out of politics
anyone?
So back to skiing, Mike, are you in?

8
Mike never accepted. My 84 year old mother,
known locally as Mama Sandy, challenged Lester
Crown to a cross country ski off. Likewise,
Lester never responded. Lester Crown admitted
to bribing politicians. Additionally, my beautiful
fiancee sent this letter to Jim Crown, Lester's
billionaire son who runs Aspen Skiing and who
has a second or fifth(?) home four blocks from
my self-built home:
Dear Jim,
I am grateful for the fantastic life I've had and
the extraordinary Aspen ski slopes on the public
lands that you lease. As my boyfriend Lee
Mulcahy writes: "Why not a Jim Crown/Shawn
Cox ski off at the base of Aspen now? ....
Cheerleaders? Would your wife Paula bring
pom-poms and go all Dallas Cowboys for you?
It'll be hilarious: billionaire vs. bartender; man
vs. woman; owner of Aspen Ski & General
Dynamics vs. peon; elite Chicago North Shore
vs. podunk Montana; Gulfstream flying Master
ofthe Universe vs. convertible driving blonde
bombshell; President ofAspen Institute vs. Wild
A
West free spirited Libertarian; "limousine liberal"
Democrat vs. NRA "Don't tread on me" a, t
e_iu
partier, Obama's self-proclaimed "best .--1" vs.
Trump's biggest cheerleader; Deep State vs. the

9
little people. Or how about a ski moguls contest
on Aspen Highlands Scarlett's instead of all this
legal stuff?"
So come on, Mr. Crown, Independence Pass is
open June 1st for skiing. The "Old Guard" of
Aspen would love it and it would be so
community oriented. But if win the ski off, the
Mulcahys' get to keep the house they built.
Sincerely, Shawn Cox
The American people are no longer partners of
the government. We are subjects.
The American dream is disappearing as little
people lose faith in our institutions and our justice
system.
The politicization of our justice system
continues unabated.
America was born out of an act of treason.
While many in Aspen may not agree with my
libertarian politics or conservative anti-government
beliefs, the freedom to dissent is one that we all
should cherish. Whether you are an Occupy Wall
Street protester or an anti-government Tea Partier in
the mountains, your right to protest and live in peace
deserves the respect of our government and all that
live under it.
District Judge Chris Seldin admitted in court
that he was a member of the Aspen Institute's Lester

10
Crown Society of Fellows for over a decade.
Colorado's court of appeals wrote that "the judge was
a member of the Society of Fellows of the Aspen
Institute periodically over a fourteen-year (14)
period...." Annual membership, which promises
"access," begins at $2500.00. To many Americans, an
annual $2500 donation by an assistant county attorney
to an organization controlled by out of state
billionaires for over a decade would indicate "bias."
Not according to our justice system: It's just like the
police. When the system investigates itself, nothing
happens. Furthermore, Lester's son, Jim, is President
of the Aspen Institute's board. Former President
Obama describes Jim and his artist wife, Paula, as his
"best friends." Several local judges declined to
declare the flyer as "protected free speech" despite
multiple requests. No one wants to cross the Crown.
Why did the court sit on the case for years and
multiple judges refuse to declare the flyer as
"protected free speech?" Retaliation against protected
free speech is illegal.
Once local politician Chris Seldin was
6.
appointed judge in Aspen by the Democratic governor,
the Democratic machine that has held power for
decades moved to have me evicted from the home my
family built with our own hands. Previously, the
Aspen Institute's attempted restraining order against
me went to the Colorado Supreme Court and the
Judge Seldin's beloved Aspen Institute lost. When you

11
sue a powerful billionaire in America, expect to be the
defendant on allegedly unrelated lawsuits. Colorado's
history on judicial rulings for labor activists has been
well documented and frankly, sad. We are grateful to
God and the community for their love and support,
especially the Gorsuch's and Father John Hilton.
Perhaps, local politician cum assistant Pitkin County
attorney cum judge Chris Seldin believes that in the
United States of America if you punish a
whistleblower, you'll be rewarded. Phillip Taft and
Phillip Ross, both scholars of American labor violence
concluded that "there is no episode in American labor
history in which violence was as systematically used
by employers as in the Colorado labor war of 1903 and
1904." In these battles between labor (little people)
and capital, between miners and mine owners, the
state government with one exception sided with
capital. And so it continues.
Tribalism in humans runs deep. My family
7.
volunteers our time and resources with our church
providing clean water wells and humanitarian aid in
Kenya where there are 42 tribes. Here in the United
States, some state America has two main tribes: the
Republicans and the Democrats. The Democrats
control Aspen, its city council and board of county
commissioners which have blocked all hearings,
settlements and mediation. The Mulcahy's are Tea
Party Republicans. The weaponized combination
threatens the very liberty that Americans fought a

12
revolution to secure. American historian Gary Gentle
warns that the fracture between Democrats and
Republicans over the proper reach of government
constitutes an unbridgeable chasm and may portend to
the nation's decline.
Out of state owner of Aspen Ski Lester Crown
and his Judge Chris Seldin are Jewish. My family feels
crucified by both. History shows tribalism is
destructive. I would note that my family in the spirit
of community put my Father's name on the first and
second floors of the Jewish temple on Main Street of
Aspen in the spirit of community. Both local rabbis
signed our petition for a public hearing on the political
eviction of our family from the home* we built
ourselves. We presented over 2000 signatures to
Aspen's city council and Judge Seldin. *We have never
been late on taxes.
Justice Brandeis stated in his dissent in
Olmstead v. United States:
"Decency, security and liberty alike demand
that government officials shall be subjected to
the same rules of conduct that are commands
to the citizen. In a government of laws,
existence of the government will be imperiled if
it fails to observe the law scrupulously. If the
government becomes a lawbreaker, it breeds
contempt for the law; it invites every man to
become a law unto himself; it invites anarchy."

13
CONCLUSION
For the foregoing reasons, petitioner Lee Mulcahy
respectfully respects that this Court grant his Petition
for Rehearing.

Respectfully submitted,
Lee Mulcahy, Pro Se
53 Forge Rd., Aspen CO 81611 970.429.8797
July 17, 2020
leemulcahyphd@gmail.com

CERTIFICATE OF PRO SE PETITIONER
I hereby certify that this petition for rehearing is
presented in good faith and not for purposes of delay.

Lee Mulcahy, Pro Se

